No.

2o- fo&t

In the
Supreme Court of the United States

Jorel Shophar,
Petitioner,
v.
Johnson County Kansas
Judge Christina Gyllenborg
Judge Kathleen Sloan
Kansas Department of Children and Families
KVC Health
Respondents.

On Petition for Writ of Certiorari to the
Kansas Supreme Court

PETITION FOR WRIT OF CERTIORARI

Jorel Shophar Pro Se
1900 E. Golf Rd. Ste. 950
Schaumburg, Illinois 60173
Phone: (773) 563 9851
Shophar@UnitedStatesChurch.us

FILED
JAN 29 2021

Questions Presented for Review
1. Is the enjoyment of the Eleventh Amendment
Immunity for County judge’s contradictory to
Fourteenth Amendment for U.S. Citizens, when
County Judges intentionally deprived a citizen of
the Fourteen Amendment right?
i

2. Are Mothers’ Constitutional parental rights
treated superior over Fathers’ Constitutional
parental rights, violating the Fourteenth
Amendment?
3. Is it Unconstitutional to prohibit a Father from
litigating Pro Se for his children in the Court of
Law?
4. Are State Child Protective Services Laws,
violating U.S. Citizens Constitutional Rights of
the Fourth Amendment, for seizing children
from parents based on allegations, without
probable cause, and without trial?
5. Should the Federal Courts be a remedy to illegal
Seizures of children when a State violates State
and Federal Laws pertaining to the Fourth
Amendment, concerning Seizures?
6. Should the law of UCCJEA (Uniform Child
Custody Jurisdiction Enforcement Act) be placed
under Federal Jurisdiction due to States
corruption?

i

Table of Contents
Questions Presented for Review..............
Table of Appendices....................................
Table of Authorities....................................
Petition for a Writ of Certiorari................
Opinions Below...........................................
Statement of Jurisdiction.........................
Constitutional and Statutory Provisions
I. Statement of the Case........................
II. Factual Background............................
III. Relevant Proceedings Below...........
IV. Additional Facts.................................
V. Arguments ...........................................
i. Violations of Biblical Law................
ii. Violations of Constitutional Law ..
VI. Reasons for Granting the Petition...
VII. Conclusion..........................................

n

1

m
vm
1
1
1
1
2
2
28
30
30
30
31
40
41

Table of Appendices
Appendix 1 - Envelope and letter from the Clerk of
the Appellate Courts of Kansas dated for November
la
23, 2020. No order was attached

Appendix 2: Postdated envelope for November 24,
2020 which included a letter from the Clerk of the
Appellate Courts of Kansas dated for November 20,
2020. An Order was also attached. Case 123314:
4a
Petition denied and case closed
Appendix 3: April 3, 2019 order from Johnson
County Court, Judge Sloan findings: Based on no
contest statement of the Mother and evidence
presented against the Mother children were in need
of care. Court agreed to issue a Regulation 7 ICPC
Expedited placement of the children to Father’s home
9a
if he provided home address
Appendix 4: Order ICPC Regulation 7 Expedited
Placement of Children to Petitioner’s home in the
State of Illinois on September 19, 2019. Petitioner
was approved by the State of Illinois. Respondents
did not fulfill the order instead without due process
secretly returned the children with the Mother in the
13a
State of Missouri

in

Appendix 5: Forensic Mental Health Evaluation
Report result for Jorel Shophar which was ordered by
Respondents.
Report stated, a ((
and
would be
totally safe and secure in the care of Jorel and
Angel Shophar. Furthermore, there was nothing
in Jorel’s psychological profile that would
require that he should enroll in an anger
management program, a batteries intervention
17a
course or parenting classes
Appendix 6: Forensic Mental Health Addendum for
Jorel Shophar requested by Court again: Examiner
maintained his position stating: “Jorel Shophar is
a well-adjusted adult who has a long history of
being an excellent parent to the three children
that he and Angel have raised since their
birth.”
22a

IV

i

Appendix 7: All Seven of the Petitioner’s 3 hour
visits with his children in 2017. Documented and
witnessed on 4 occasions by a Court ordered therapist
Parenting
Instructor;
Janet
and
35a
Mitchell
1. https://www.facebook.com/jorelrshophar/posts/
1482300731789099
2. https://www.facebook.com/jorelrshophar/posts/
1489615544390951
3. https://www.facebook.com/jorelrshophar/posts/
1498585083493997
4. https://www.facebook.com/jorelrshophar/posts/
1502718319747340
5. https://www.facebook.com/jorelrshophar/posts/
1524965050856000
6. https://www.facebook.com/jorelrshophar/posts/
1525056220846883
7. https://www.facebook.com/jorelrshophar/posts/
1527144833971355

v

Appendix 8: The Petitioner documented events
through audio and video to protect himself and his
other family from the beginning. He classified each
video evidence as Part 1, Part 2, and Part 3. There
is more evidence that the Petitioner has not made
public. This evidence has been used by State and
Federal Courts concerning this matter
36a
Part 1: https://www.vimeo.com/279097759
Part 2: https://www.vimeo.com/278003779
Part 3: https://www.vimeo.com/279064934
Appendix 9: Krissy Gorski has practiced prostitution
in the State of Missouri and State of Kansas, and
State of Michigan, even to this day in the dangerous
times of COVID-19, using the name KAYLA KRISSY
KAYCE, publically soliciting herself for prostitution
with strangers, which resulted in children being
sexually abused in her home. All Courts in State and
Federal are aware of the online attachments, which
were used in State and Federal Courts as evidence
..........................................................................................36a
https://sumosear.ch/images/phone/913-265-1764/5
https://eccie.net/showthread.php ?p=1061575590

vi

Appendix 10. This is evidence that the Petitioner's
home was a place of events for the entire
neighborhood, with no problems with children
40a
https://www.vimeo.com/279097759 Time 2:57 — 4:04
Appendix 11 online evidence of audio recording of
Krissy Gorski, who contrive falsehood in the Court of
Law, in State and Federal Courts in Michigan,
Kansas and Illinois, for over 5 M> years, even to this
day, and never being penalized for perjury
37a
https://www.vimeo.com/279097759
https://www.vimeo.com/279097759
https://www.vimeo.com/279097759
https://www.vimeo.com/279097759

Vll

Time 9:05 —9:28
Time 9:57 -10:09
Timel2:30 —13:18
Timel3:49 —15:21

Table of Authorities
Biblical Law
Deuteronomy 1:17
17 Do not show partiality in judging; hear both small
and great alike. Do not be afraid of anyone, for
judgment belongs to God. Bring me any case too hard
for you, and I will hear it.”
Proverbs 19:5
A false witness shall not be unpunished, and he that
speaks lies will not escape.
John 1:24
Do not judge according to appearance, but judge with
righteous judgment.
Deuteronomy 19:15
One witness shall not rise against a man concerning
any iniquity or any sin that he commits; by the mouth
of two or three witnesses the matter shall be
established.

Vlll

Table of Authorities
Pages

Cases
Smith v. Organization of Foster Families

12

Truax v. Corrigan (1912)

32

Stanley V. Illinois,
4405 US 645 [1972]

10

Gross v. State of Illinois,
312 F 2d 257; (1963) ...

32

Bd. of Regents of St. Colleges v. Roth,
408 U.S. 564, 570, 92 S.Ct. 2701, 2705 (1972)

33

Fuentes v. Shevin,
407 U.S. 67, 80, 92 S.Ct. 1983, 1994 (1972)

34

Washington v. Glucksburg
521 U.S. 702 (1997)...........

35

Rose v. Himely,
(1808) 4 Cranch 241, 2 ed 608;

35

Pennoyer v. Neff,
(1877) 95 US 714, 24 L ed 565;

35

Thompson v. Whitman,
(1873) 18 Wall 457, 21 1 ED 897

35

IX

Windsor v. McVeigh,
(1876) 93 US 274, 23 L ed 914

35

McDonald v Mabee,
(1917) 243 US 90, 37 Set 343 61 L ed 608

35

Stanley V. Illinois,
4405 US 645 [1972]

37

In Stanley v. Illinois,
405 U.S. 645, 92 S. Ct. 1208 (1972)

Constitutional Provisions
First Amendment
Fourth Amendment
Fourteenth Amendment
Federal Statutes

USA § 1738A(a)
18 U.S.C., Section 241
18 U.S. Code § Section 242
28 U.S. Code § 4101
42 U.S. Code § 1983
UCCJEA (Uniform Child Custody Jurisdiction
Enforcement Act)
State Statutes
RULES RULE 110A
KAN. STAT. § 38-2271

x

39

Petition for a Writ of Certiorari
I, Jorel Shophar, a Father, respectfully petitions for a
writ of certiorari to review the Order of the Kansas
Supreme Court, involving Constitutional law and
Federal laws.
Opinions Below
The Supreme Court of Kansas noted the Petitioner’s
Memorandum in support of the Writ of Mandamus
and entries of appearance. The Court denied the
petition and closed the case, without allowing the
parties to even plead on the case, or answer the claim.
Statement of Jurisdiction
The order of the Supreme Court of Kansas states it
was entered on November 20, 2020. View Appendix 1
and 2. Correspondences sent to the Petitioner by the
Kansas Supreme Court raises question on the
accurate filing date which has different dates, after
the Petitioner filed a “Notice of Appeal” to the
Supreme Court of the United States.
Constitutional and Statutory Provisions
First Amendment Congress shall make no law
respecting an establishment of religion, or prohibiting
the free exercise thereof; or abridging the freedom of
speech, or of the press; or the right of the people
peaceably to assemble, and to petition the
government for a redress of grievances.

1

Fourth Amendment ~ The right of the people to be
secure in their persons, houses, papers, and effects,
against unreasonable searches and seizures, shall not
be violated, and no Warrants shall issue, but upon
probable cause, supported by Oath or affirmation, and
particularly describing the place to be searched, and
the persons or things to be seized.
Fourteenth Amendment ~ All persons born or
naturalized in the United States, and subject to the
jurisdiction thereof, are citizens of the United States
and of the state wherein they reside. No state shall
make or enforce any law which shall abridge the
privileges or immunities of citizens of the United
States; nor shall any state deprive any person of life,
liberty, or property, without due process of law; nor
deny to any person within its jurisdiction the equal
protection of the laws.
I. Statement of Case
Factual Background
i.
Premise of Case
The children of Jorel Shophar. J.S. and B.S., were
illegally “seized” by the State of Kansas based on drug
abuse by the mother; Krissy Gorski; who was arrested
for crashing at an Elementary School, with the
children in the vehicle. Gorski was charged with DUI
[driving under influence] of METH and HEROIN in
the State of Kansas. The father, Jorel Shophar, was
not the “offending” parent, having no criminal record,
2

and lived in another State. The father was searching
for his children at the time of the mother’s arrest. The
mother had previously absconded the children and
took them illegally across State lines, without
informing the father, or the Kansas Court, violating a
Kansas Order “Not to leave the State of Kansas.” The
State of Kansas did not contact the father, though
state actors had the fathers contact information.
Krissy Gorski was arrested on March 28, 2018,
but was allowed to sober up by the Olathe Police
Department. The children were then returned to her
by Police, without contacting the father, though the
Police had the father’s contact information. Krissy
Gorski continued to drive under the influence of
drugs, and was observed high, being witnessed by a
respite guardian.
On April 17, 2018, 21 days later, the State of
Kansas “seized” the children, making the children
WARDS OF THE STATE OF KANSAS, without
allowing the father the right to the hearing in
Johnson County Kansas, DENYING the father a
/
Constitutional right to his children, before the illegal
seizure, and is holding the children illegally for nearly
3 years to this present time, violating the
children’s Constitutional rights and the father’s
Constitutional rights of the First Amendment, Fourth
Amendment, and Fourteenth Amendment.

3

n.

Summary of prior background of;
Shophar v. State of Kansas (2015 and
2016)

Krissy Gorski is the mother of Jorel Shophar’s 2
boys, ages 9 and 7. On January 1, 2011, in the State
of Michigan, Krissy Gorski was saved from a
reckless life of drugs and abuse, by Shophar through
his founded City outreach, United States Church.
After Gorski’s rehabilitation, Shophar and Gorski
would later develop a relationship, having a ceremony
but not a legalized marriage by the State of Michigan;
due to Krissy Gorski’s history of drug abuse. They
would have two healthy children in the State of
Michigan in the City of Novi, Michigan. Krissy
Gorski would remain clean from drug abuse for over
4 Va years with Shophar, in their residence in Novi,
Michigan.
Shophar moved his family from Michigan to
Kansas to establish the Church in Topeka, Kansas.
During the journey, Gorski was disgruntled to move
to Topeka, Kansas, and wanted to move back to
Michigan. Shophar was concerned that Gorski would
return to a past of drugs and a destructive life without
guidance. Gorski was cleaned from drug abuse and
solicitation for over 4 years with the Petitioner, but
was given opioids after minor operations in Olathe

4

Kansas Medical Center. No practitioner reviewed
Gorski’s prior drug addictions. Gorski then returned
to opioid abuse, and became erratic with the children.
As Shophar made actions to move to Topeka
Kansas, he also made actions to get full custody of his
children, to protect them from the mother’s erratic
behavior, due to drug abuse. Gorski, knowing her
history with drugs and with a prior child abuse
conviction in Michigan, for another child of which her
rights were terminated; made scheming plans to
mischaracterize the Petitioner in the Johnson County
Kansas Court, so that Gorski could gain an upper
hand in a pending custody battle for two boys.
Gorski plotted with neighborhood affiliate
women, who taught Gorski how to make a fraudulent
claims of abuse to win custody of children in Johnson
County Kansas, having full confidence that the
Kansas Courts would rule in the favor of the mothers,
“guaranteed.”
These neighbors spent the 2015
summer at the Shophar’s home with parties, and
events; they would later help Gorski plot a complete
fraudulent claim to help her win a custody order,
contacting a judge privately on her Facebook.com
account. They taught Gorski how to obtain federal
funding, and housing for their two children even if
“you don’t have a job.”

5

View Appendix 10
https://vimeo.com/279097759 Time 2:57 - 4:04
In June of 2015 after a series of erratic actions by
Gorski, after abusing 12 doses of opioids in one dose,
Gorski choked one of the children, and was abusing
their children with a kitchen spoon. The Petitioner
made actions to protect his children. Gorski, having
been informed of how to manipulate Johnson County
Kansas Court system, contrived a fraudulent tale on
August 12, 2015, that the Petitioner abused her, and
their children, and that he was going to “kill her for
life insurance” though Gorski had no life insurance,
and the children were in no regard ever abused by the
father in any way. The Petitioner being aware that
Gorski was plotting, recorded her actions and
conversation with Gorski, with confession by Gorski
on audio that “I’m not afraid that you would ever hit
me and I never said that you did.”
View Appendix 11 online evidence
https://www.vimeo.com/279097759
https://www.vimeo.com/279097759
https://www.vimeo.com/279097759
https://www.vimeo.com/279097759

Time 9:05 —9:28
Time 9:57 -10:09
Timel2:30 —13:18
Timel3:49 -15:21

On August 12, 2015, the father contacted Kansas
DCF and Michigan DCF to find and protect his
children. Kansas DCF would turn the tables against

6

the father, though he had evidence that Gorski hurt
her children and abused drugs. Gorski then contrive
a fraudulent lie in Court, of being in fear of the
Petitioner though he recorder Gorski begging to see
him in secret on September 17, 2015.
Pursuant to Biblical Law ~ Proverbs 19:5
A false witness shall not be unpunished, and he who
speaks lies will not escape.
In the beginning of the cases, the Petitioner also
filed his counter claims in the Johnson County
Kansas, on August 17, 2015 to protect his children
from any further threats, and made claims before
Judge Christina Gyllenborg in the 9th DIVISION OF
JOHNSON COUNTY. Johnson County Court denied
Shophar any access to his children, and placed the
children with the mother, while she abused opioids
and had choked their child. The Court denied
Shophar’s, evidence, witnesses, and documents, but
granted Krissy Gorski claims — who was the only
witness to her fraudulent claim. Gorski had no
evidence. Shophar had a litany of evidence and
witnesses, but was denied “Due Process.”
Judge Gyllenborg denied the Petitioner his
Constitutional right to make a claim before the court.
Judge Gyllenborg allowed Gorski’s false claims before
the Court, but denied all of Shophar’s evidence and

7

Documents; proving Parentage of the children in their
birth place of the State of Michigan:
State of Michigan, under Act 305 of 1996, 722.1006
- The Original Establishment of Parentage
is the signing of Father and Mother
agreement on Birth Certificate.
Johnson County Court would deny the Petitioner
every entitlement of his 1st Amendment Right to the
Court, depriving the Petitioner of Due Process.
On September 28, 2015, the Petitioner
presented new evidence that Gorski returned to
prostitution and drug abuse of illegal drugs, and that
the children complained of abuse by “strangers”,
while Gorski had access to the children. The father’s
claims were ignored in the Court. Shophar and
Gorski would dismiss their claims against each other
in the Court hearing. However, Judge Gyllenborg
“seized” the children and placed them into state
custody on the bases of Protection orders yet the
claims were just dismissed by both parents. A Child
in Need of Care case was opened and assigned to
Judge Vano. Leslie Cintron Wenski Bills, a friend
of Krissy Gorski contacted Judge Sloan on her
www.Facebook.com email. Bills was affiliated with
Judge Sloan through a Jazzercise workout in Olathe
Kansas.

8

r

\

Bills contacted Judge Sloan and gave information
to influence the judge to favor Krissy Gorski, giving
information outside of the judge’s judicial capacity.
On a September 29, 2015 hearing, the case was
taken from Judge Vano, and removed by Judge Sloan
and placed in her court, violating every rule of ethics
in State and Federal Procedure for Court
Proceedings. From that time onward Shophar was
mistreated in the Court, mocked by Judge Sloan.
Shophar was berated about his beliefs in the Holy
Bible, and his work as a minister. His attorneys were
denied access to hearings, and also mocked in the
Court.
Shophar filed complaints with the Kansas
Judicial Committee and was denied a review. The
Petitioner was denied rights to his children, though
there were no claims against him, seeing the false
claims of Gorski were dismissed by Gorski herself,
and the State of Kansas filed their findings of no
evidence of any wrong and that Gorski’s claims were
“inconsistent” and “unsubstantiated”, however, Judge
Gyllenborg and Judge Sloan still illegally “seized”
his children, violating the Fourth Amendment.
The Court would later place the children with
another one of the mother’s friends; Teena Wilkie,
who also supplied Gorski with opioids and helped
Gorski file a fraudulent claim against the Petitioner

9

and his family, though Teena Wilkie did not even
know the Shophar family, and only met the father one
time.
After continual discrimination in the Courts and
being denied the right to even see his children and
being lied on that his children were afraid of him. The
Petitioner recorded his visits with his children.
View Part 1 of Appendix 8 (time stamp)
https://www.vimeo.com/279097759 Time 15:24-24:06
The Petitioner’s Attorney placed evidence of video
recording on Court record, proving his children were
not afraid of their father. Judge Sloan then violated
the father’s First Amendment Rights, and Ordered
the father not to take any more photos or record his
children any more. After continual discrimination
and denial of his rights to see his children, on
November 18, 2015, the Petitioner would file claims
under Federal laws of discrimination and deprivation
of rights in the Kansas U.S. District Court pursuant
to 42 U.S. Code § 1983, filing cases:
5:15-cv-4961-DDC-KGS U.S. District Court, Kansas
5:16-cv-4043-DDC-KGS U.S. District Court, Kansas
Shophar also filed an Appeal in the Kansas Appellate
Courts, and was received for review. Judge Sloan
then closed the case without any adjudication
against the Shophar. The Kansas Appellate Court

10

then dismissed the case as “moot”, ruling the case was
now closed, though Shophar was still separated from
his children without any probable cause. Judge Sloan
then transferred the case back to Judge Gyllenborg,
which is a child Custody judge of Johnson County
Kansas. Shophar was denied Motions, Hearings,
being denied an attorney, or time to acquire an
attorney, being forced to represent himself in a Trial
for Custody as his own attorney, in Judge Christina
Gyllenborg’s Court on December 12, 2016.
On December 12, 2016 after the trial, Judge
Gyllenborg, granted joint-custody of the children to
both parents, but placed the children in Krissy
Gorski’s home. Shophar presented evidence that
Gorski was prostituting and placing the children in
danger. However, the Kansas Court still denied the
father any time with his children alone, denying
Shophar his Constitutional Rights to his children,
only allowing Krissy Gorski to have full custodial
residency.
Shophar would be denied medicine
records, school records, or school location, knowledge
of where his children lived, Shophar was denied the
right to talk to his children, or make contact with his
children, without any adjudication by Judge
Gyllenborg, of any wrong act done by the father.
Krissy Gorski worsened in drug abuse, allowing
criminal to watch the children while Gorski
prostituted the streets of Kansas, and Kansas City,

11

Missouri. This conduct continued for many years.
The United States Supreme Court ruled in Smith v.
Organization of Foster Families, the Supreme Court
attempted to define the scope of the family relationships
protected by the Due Process Clause. The Court enumerated
three guidelines to define the breadth of the family protected
by the Due Process Clause. First, according to the Court,
"the usual understanding of family' implies biological
relationships....Id. at 843 " Second, familial relationships
usually involve "emotional attachments that derive from
the intimacy of daily association.... Id. at 844." Third, the
"natural family" has "its origins entirely apart from the
power of the State .... Id, at 844-45.
The State of Kansas did not follow the U.S.
Supreme Courts Orders, but with willing and wanton
conduct, placed the children with Krissy Gorski
though she was an imminent threat to the wellbeing
of the children, as she prostituted and abused drugs.
View Appendix 9:
https://sumosear.ch/images/phone/913-265-1764/5
https://eccie.net/showthread.php ?p=1061575590
Finally, on March 29, 2017 the father was able to
have visits for 3 hours, with his children alone, only
one day a week, after litigating for over 2 % years in
Kansas Courts, based on dismissed cases, and false
allegations by Gorski. The mother lived in Johnson

12

County Kansas, the father lived an hour away in
Shawnee County Kansas. During the first drive of
Shophar with his boys, J.S. and B.S., as he was taking
them to see their siblings R.S., Z.S., and E.S., the
children in the vehicle, started talking sexually
explicit, which greatly alarmed the father. He then
recorded the children.
View Part 1 of Appendix 8 (time stamp)
https://www.vimeo.com/279097759 Time 34:03-39:00
The behavior of the children worsened in
admission, each week, as he traveled from Johnson
County Kansas, to Shawnee County Kansas. J.S.
then made an admission about a “penis” and later
asked “would you like me to taste their private parts?”
The father, being shocked by the question and in
great fear, reported the statements immediately to
the Shawnee County Topeka Police, and asked an
officer to take his police report. The father contacted
the court appointed therapist, Ben Gleaves, who
instructed the father to bring the children back, and
that he would make a report with the Court and
review the children.
The father returned the children with faith that
Gleaves would make a report to the Police in Johnson
County. Gleaves did not make a report, instead
Gleaves stated “there is nothing wrong with the

13

children”, and threatened the father that if he goes to
the police again, it would “impede on his time with his
children.” The Father contacted Topeka police
anyway and made a report and was instructed to filed
a protection order in his County. On May 3, 2017 the
father filed a protection order in Shawnee County
Kansas Court case: Case: 2017DM0846. He also
contacted the Topeka Police again who instructed him
to hold the children overnight on May 10, 2017, and
bring them to the Topeka Police for a review
View Part 3 of Appendix 8 (time stamp)
https://www.vimeo.com/279064934 Time 00:28-01:28
https://www.vimeo.com/279064934 Time 20:05-21:28
On May 10, 2017 the child J.S. expressed that
he was being forced to “taste private parts” the father
then started recording his child again, and played
back the prior audio records of the child’s own words,
he then requested his child to explain what he meant
by the first admissions.
View Part 3 of Appendix 8 (time stamp)
https://www.vimeo.com/279064934 Time 15:00-20:05
Shophar held the children over night as instructed
but was also instructed to contact the Olathe Police
Department. Shophar explained the situation to the
Olathe Police. The officer then gave Krissy Gorski
Shophar’s address in Topeka Kansas. The Johnson
County Judge Gyllenborg, then ordered the children

14

back to the mother and would not allow the Topeka
Police to review the children.
View Part 3 of Appendix 8 (time stamp)
https://www.vimeo.com/279064934 Time 01:47-13:49
Days later Krissy Gorski fled to the State of
Michigan in May of 2017, after now being under
investigation for sexual child abuse,
Gorski
absconded the children and fled to the State of
Michigan, violating a Court order by Judge
Gyllenborg not to leave the Kansas City Metro. The
Judge did not penalize Gorski for violating the Courts
order or the Law.
Shophar contacted the FBI on June 1, 2017, and
was contacted by the FBI on June 12, 2017. The
father met, that day, with a Child Exploitation Agent
for 2 hours at the FBI Headquarters in Kansas City
Missouri. The FBI agent requested the father to bring
the child in for a Psychological Forensics Review. The
father would report the information to the Kansas
Court, but was denied, by Judge Gyllenborg, any time
with his children alone. During this time Krissy
Gorski had moved to the State of Michigan with the
children and hid with family. After the father learned
that Gorski was with family, he filed a complaint in
Johnson County Court, but was denied by the Clerk
of Johnson County, who cited the case with closed.

15

The father went to the Topeka Capitol and made
contact with Representative John Adams who
forwarded Shophar to Representative Brenda
Dietrich of the State of Kansas, State Legislators.
Rep. Dietrich was given a detailed review of the
deprivation in Johnson County and promised
Shophar a meeting with the State Legislator.
Shophar spoke with Rep. Dietrich on the phone and
through email, but was later forwarded back to
Kansas DCF in Olathe. Shophar fearing for the life
and safety of his children, moved back to the State of
Michigan to find his children, and filed an
emergency protection order, but was denied by the
State of Michigan Court. The father then filed a
Petition for Emergency Jurisdiction under UCCJEA
provisions, filing case: 2017-856409-DC.
The Court of Michigan ordered a trial, but was
contacted by Judge Gyllenborg of Kansas, who
requested a conference with the Michigan Judge
under UCCJEA provisions. And on September 17,
2017 Judge Gyllenborg allowed Krissy Gorski to file
another fraudulent protection order, that the father
stalked her with a “drone that followed her from
Kansas to Michigan and intercepted her calls.” Judge
Gyllenborg granted the false claims, without a
hearing with the father, or any evidence, violating the
Petitioner’s fundamental rights to the Court.

16

In the conference with the Michigan Judge, Judge
Gyllenborg gave false information to the Michigan
Judge, stating “Shophar refused a review by the
Police for the children.” Judge Gyllenborg also stated
Krissy Gorski did not move to Michigan, and claimed
Gorski was currently a resident of the State of
Kansas, which was a direct false statement. The
Michigan Judge then declined to hear the case, and
closed the case in Michigan, giving Jurisdiction back
to Judge Gyllenborg in the State of Kansas.
Judge Gyllenborg would also have a hearing in
Kansas, which Gyllenborg changed into a trial, in the
absence of the Petitioner on October 6, 2017, and
charged the father with abduction for keeping his
children overnight for the May 10, 2017 event, when
the father obeyed law enforcement to hold them
overnight for a review of the children.
Judge
Gyllenborg did not charge the mother for absconding
the children to another State and violating a Court
order and Kansas law, and Michigan law. Now
Shophar was facing two more nefarious orders from
Johnson County Kansas, while he was in the State of
Michigan looking for his children. The father then
filed a Federal Lawsuits, based on deprivations of
civil rights, and under Emergency Habeas Corpus to
implore the Federal Court to order Judge Gyllenborg
and Krissy Gorski to produce the children. Cases:
U.S. District Michigan: 2:17-cv-13322-MAG-EAS

17

U.S. District Michigan: 2:17-cv-13900-MAG-EAS
U.S. District Michigan: 2:18-cv-11567-MAG-EAS
The cases were dismissed based on the U.S. Court
Opinion of “Lack of Jurisdiction.” The father would
file in the U.S. Appeals Court, who Affirmed the
Michigan U.S. District’s Opinion. After 10 months of
being denied any knowledge of his children, on
March 28, 2018 Krissy Gorski was arrested for DUI
on METH and HEROIN, after she crashed her vehicle
into an Elementary School in the Olathe Kansas. The
father was litigating in Federal Court after being
denied Due Process in the State of Kansas Courts.
Judge Gyllenborg then transferred the case back to
Judge Sloan.
On April 17, 2018 Judge Sloan “seized” the
children, making them WARDS OF THE STATE OF
KANSAS, and placed the children back in the home
of Krissy Gorski’s friend, Teena Wilkie, who originally
provided Gorski with opioids and helped Gorski
contrive the entire matter. Wilkie also watch the
children for Gorski on the weekends while Gorski
would prostitute in Kansas City, Missouri. Kansas
DCF sent a letter to the father in Michigan informing
him that his children were in State Custody on April
22, 2018. The father learned that his children were in
State Custody and with Teena Wilkie, Krissy Gorski’s
friend, again. The father called Teena Wilkie and

18

asked to speak to his children, but Wilkie would not
allow him to talk to his children.
The father
immediately contacted the Court in Kansas, and filed
an appearance on April 25, 2018.
A hearing was set for May 14, 2018, the father was
informed that he would be contacted in phone
conference by KVC Health from the Court, but on
May 14, 2018 Judge Sloan of Kansas, did not allow
the father in the hearing, and further, made an Order
that the father could not see his children, or talk to
her children, and prohibited the father from
appearing in any Court hearings. The Court assigned
three Guardian ad Litem’s to the case, two withdrew,
and the final Guardian ad litem, Richard Klein,
refused to contact the father, based on the mother’s
request, violating Shophar’s rights of Due Process.
Pursuant to USA § 1738A(a) (“The appropriate
authorities of every State shall enforce according to its
terms . . . any custody determination or visitation
determination made ... by a court of another State.”)
Shophar is a resident of the State of Illinois, but
was denied the rights to the State of Kansas,
depriving the father of his Constitutional rights to the
Courts, while being in a Foreign State, though his
children were “seized” without any illegal actions of
the father.

19

Johnson County allowed all Krissy Gorski’s
affiliates and friends to appear in the Court but
denied the father any rights to the Court, violating
the father’s Fundamental rights to the Court. Krissy
Gorski would contact the father’s immediate family
and continued to slander the Petitioner to his own
family. Shophar’s estranged brother would appear on
the case on behalf of Krissy Gorski, and was allowed
by Judge Sloan to participate in Court proceedings,
but denied the father, any rights to the Hearings.
The Petitioner continued to communicate to State
Actors through email and continued to send files and
pleadings to the State of Kansas clerk, finally in
October of 2018, the father was allowed on the case by
Judge Sloan. The father would file a Motion for ICPC
(Interstate Compact Placement of Children) to the
father’s residence. Judge Sloan forced a trial against
the Petitioner though he was not the offending
parent, as to the cause of the illegal State “seizure” of
the children.
On April 2, 2019 the father filed a State Case in
the State of Illinois where he resides. On April 3,
2019 Judge Sloan held a trial, and allowed Kansas
DCF, and KVC Health, and the GAL Richard Klein to
placed false allegations on Court record against the
Petitioner. The Petitioner was not allowed to cross
examine the witnesses.

20

Judge Sloan allowed Shophar to have closing
statements, and Granted Shophar an Order of ICPC
Regulation 7 to the father’s residence on April 3,
2019. However, on the following hearing of May 1,
2019, Judge Sloan omitted her order and allowed the
Kansas Attorney and GAL to Motion the Court to
return the Children back to Gorski. Judge Sloan
omitted her own Order of ICPC Regulation to the
father’s home in the State of Illinois, and denied the
father any knowledge of his children. The father then
filed a Habeas Corpus in Federal Lawsuit Case:
U.S. District Illinois Case: l:2019-cv-03512-CRN
The case was transferred from the U.S. District of
Illinois Court to the State of Kansas U.S. District
Court of Topeka Case:
U.S. District Kansas Case: 5:19-cv-4052-HLT-KGG
Judge Sloan was served the Complaint on
September 18, 2019, and on September 19, 2019
Judge Sloan reordered the children to be sent to the
father in the State of Illinois, under ICPC Regulation
7, based on approval by the State of Illinois view
Appendix
The father was approved by the State of Illinois
on October 17, 2019 to be placement for his children.
However, the State of Kansas would not return the

21

children to Shophar in the State of Illinois. In the
Federal
case
Shophar
cited
violations
of
Constitutional Rights under the Fourth Amendment
of wrongful “Seizure” of his property to State Custody,
from the beginning, and other violations, the Kansas
U.S. Court dismissed the case. After the U.S. District
Court of Kansas dismissed the case, Judge Sloan
denied the Shophar any access to the Court again.
Shophar then filed an Appeal in the 10th Circuit Court
of Appeals, which Affirmed the U.S. Kansas District.
During this time the children would complain of
being abused by Teena Wilkie’s husband, Nathan
Wilkie. Kansas DCF then placed J.S. in a Psychiatric
Ward, and separated him from his sibling B.S. and
continue to deny the father any access to his children.
J.S. would remain in a Psychiatric Ward for over a
year. J.S. then complained of sexual abuse at
Pathway’s in Topeka Kansas. The father contacted
Kansas Legislators, Representative Brenda
Dietrich and Representative John Adams of the
State of Kansas, again to have the Legislators
intervene, however the Representatives did would
refer Shophar back to the Court of Judge Sloan, in
Johnson County Kansas.
In the year 2020, during COVID-19 the father has
still been denied any knowledge of his children, by
State Actors and Krissy Gorski, who are covering up

22

sexual and physical abuse of the children under State
care and Krissy Gorski’s care. The State of Kansas
Omitted its’ own Court Order to send to children to
the State of Illinois, even though the father was
approved by the State of Illinois.
The State of Kanas, assistant attorney Erica Miller
then filed a fraudulent Petition to Terminate the
father’s rights to his children. GAL, Richard Klein
also supported the Petition and also Motioned the
Court to place the children back with Krissy Gorski,
who is now a resident of the State of Missouri, who
just served nearly 90 days in Jail in the State of
Kanas, and the State of Missouri.
Though Krissy Gorski was just released from Jail,
Judge Gyllenborg allowed Gorski to filed another
fraudulent claim that the Petitioner stalked her in
Kansas “once a month” and “wrote her a letter
threatening to kill her.” Gorski did not produce a
letter or any evidence. The father filed a Notice of
Removal in the U.S. District Court of Illinois, after
being made a Defendant again in a Foreign State,
under Diversity. Shophar filed Case:
U.S. Kansas District: 2:2020cv02280-EFM-TJJ
The case was dismissed again and is in the U.S. 10th
Circuit Court of Appeals 0:2020cv03248 - pending.

23

On July 14, 2020, Judge Sloan ordered the
children to be placed in the State of Missouri, back
with the mother, Krissy Gorski, though Gorski was
just sentenced to 14 months in Jails in the State of
Kansas. Gorski was also convicted of illegal drug
possession in the State of Missouri. Gorski continues
to abuse drugs, and prostitute. Judge Sloan is aware
of Gorski current status, and ordered the children
back to Krissy Gorski in her home across State lines,
to the State of Missouri.
II. Summary of Remedy actions sought in
State and Federal Courts.
Controversial issues have risen in the Case of
Jorel Shophar vs. Krissy Gorski in the Court of
Law, based on discrimination against the Petitioner,
based on race, based on being a father vs a mother,
based on faith in Christ and the Holy Bible, but
special privileges were given to the mother in the
Court of Law, for rights of children that were born by
natural causes by both parents, but the father has
been denied every possible remedy of law, from
Appeals to Reviews to the Supreme Court of Kansas,
being denied 6 times any remedy of Appeal, though
he is without any lawful adjudication of wrongdoing
in his entire life, having no criminal record, no
evidence for probable cause, on the contrary; the
mother committed perjury, and crimes, having a life
time of crimes and convictions in a total of 15 count
felony record for fraud, theft, identity theft, illegal
24

drug distribution and consumption, and prostitution,
in 3 States across the Country, but is given probation
every time, escaping the Law of the 1992 Crime Bill,
being defended by State Attorneys, State Judges,
State Actors, Federal Attorneys, Federal Judges, and
even in the Appellate Courts, though the evidence of
fraud in recorded. The life of Krissy Gorski is enabled
by State actors, even to this very moment, Gorski is
presently committed prostitution and illegal drugs,
while being ordered by a U.S. County Court to have
rights to children, while the father, living a civil life
is denied any knowledge of his children.
The matter became a Claim of violations and
deprivations of the Constitutional rights of a citizen
of the United States of America, which became a case
of Shophar v State of Kansas. Over the course of
over 5 % years the father has been denied his
fundamental rights to the State Courts, even with
attorneys. Shophar then filed in U.S. Courts for
remedy to Constitutional deprivations, being denied
in the U.S. District Courts, to U.S. Appeals Courts, to
filing for a Writ of Certiorari in the United States
Supreme Court, Case: 19-254. The State of Kansas,
or State actors, never answered the U.S. Supreme
Court, and continues to deny the father his civil
rights, even now concerning his children as he is a
resident of the State of Illinois.

25

Even at current times, Krissy Gorski on May 8,
2020 being just weeks released from jail, in the State
of Missouri, and the State of Kansas, filed a
fraudulent protection order under the guidance of
Judge Gyllenborg, in Johnson County Kansas
claiming the Petitioner, drove 8 hours from the State
of Illinois to stalk her “once a month” so that he
could kill her, during COVID-19, though Gorski was
in Jail, and does not live in Kansas but has been
living in the State of Missouri.
Johnson County Court judges is clearly aware
Gorski was in Jail and not living in the State of
Kansas, but allowed another fraudulent claim against
the Petitioner, though Gorski was just recently
convicted of criminal fraud, identity theft, grand theft
and illegal drug possession in the State of Missouri
and Kansas. The Petitioner provided his entire Toll
Travels from the State of Illinois, proving he never left
the State of Illinois and that it was impossible to stalk
Gorski while she was in Jail.
The Petitioner, on May 28, 2020 had to file a
Notice of Removal in the Illinois United States
Northern District Court, Case: l:2020cv03170
pursuant to 28 U.S.C. 1332 based on diversity, to
protect him and his family from another fraudulent
claims by Gorski, now inundating the State of
Illinois. Once the case was docketed in the Illinois

26

U.S. Court, the case was transferred to the State of
Kansas. The Petitioner has been denied justice, and
due process for over 5 years in the State of Kansas.
Case: 2:2020cv02280-EFM-TJJ was dismissed,
denied again and is in the United States 10th Circuit
Court of Appeals 0:2020cv03248 - pending.
The Petitioner has been denied every remedy of
the Court of Law to protect his children, which were
illegally “Seized” from the beginning, having no
probable cause as to law, or act committed by the
Petitioner. He sought first in State Court, and was
denied any rights in the Courts. Being denied in the
Federal Court, though there are multiple claims of
Constitutional
violations,
including
Fourth
Amendment rights violations, for seizing his children
without probable cause. And seeing that the Federal
Courts would not review the claims of discrimination,
and deprivation, Shophar filed a Writ of Mandamus
in the Supreme Court of the State of Kansas.
Kanas Supreme Court Mandamus Case: 123314 was
dismissed from the Kansas Supreme Court
The Kansas Supreme Court did not allow the
parties to answer the claims, before denying the
Petition, violating Due Process, which is the CAUSE
for the Petitioner Appealing to the United States
Supreme Court for remedy, to undo the severe

27

violations of Constitutional Rights, to question the
validity of the Doctrine of the ELEVENTH
AMMENDMENT IMMUNITY, which is abused by
State Courts, to ultimately demand a right to a Court
of Law in the United States of America concerning his
blood born children, J.S. and B.S., who have been
abused by a State Body, and State Actors who
committed criminal acts to cover up sexual abuse of
children, to protect their careers and constituents in
the State of Kanas, at the expense of children’s
innocence.
And now the U.S. Government is
submitting Social Security Payments to Krissy Gorski
due to the children being diagnosed with PTSD, due
to the mother allowing the children to be sexually
abuse and physically abused.
III. Relevant Proceedings Below
The Petitioner has exhausted all possible remedies
to protect his children and his name. The Petitioner’s
attempts to exercise his right to the Court of Law, are
ignored by every Court, being denied his fundamental
Constitutional Rights for over 5 years.

28

State Courts:
Johnson County Kansas Court - 2015CV5047
Kansas State CINC Court 15JC581 and 15JC582
Kansas Appellate Court Cases: 15JC581 and 15JC582
Kansas Supreme Court Petition for review 10/16
Shawnee County Court —Kansas Case: 2017DM0846
Oakland County Court - Michigan Case: 2017-856409-DC
Wayne County Court - Michigan Case: 2017-113070-DC
Kansas Supreme Court - Mandamus - 118143
Wayne County Court - Michigan Case: 18-157491-DS
Johnson County Court Kansas 18JC00229
Johnson County Court Kansas 18JC00230
Cook County Court - Illinois Case: 2019D079387
Kansas Supreme Court - Mandamus - 123314 (10/19/20)
Federal District Courts
U.S. District Kansas Case: 5:15-cv-4961-DDC-KGS
U.S. District Kansas Case: 5:16-cv-4043-DDC-KGS
U.S. District Michigan Case: 2:17-cv-13322-MAG-EAS
U.S. District Michigan Case: 2:17-cv-13900-MAG-EAS
U.S. District Michigan Case: 2:18-cv-11567-MAG-EAS
U.S. District Illinois Case: l:2019-cv-03512-CRN
U.S. 10th Circuit Court of Appeals: 0:2017cv03143
U.S. 10th Circuit Court of Appeals: 0:2017cv03144
U.S. 10th Circuit Court of Appeals: 0:2019pr03281
U.S. 10th Circuit Court of Appeals: 0:2020cv03248
U.S. 6th Circuit Court of Appeals: 0:18-cv-02115
U.S. 6th Circuit Court of Appeals: 0:18-cv-02125
U.S. 6th Circuit Court of Appeals: 0:18-cv-01787
U.S. 6th Circuit Court of Appeals: 0:18-cv-02045
United States Supreme Court Washington D.C.
U.S. Supreme Court case: 19-254

29

IV. Additional Facts
Shophar’s Constitutional Parental rights pursuant
to the United State Supreme Court, have also been
denied, and till this very moment, Krissy Gorski
who has had rights of a child TERMINATED in the
State of Michigan, based on abuse and neglect to her
first child, D.G., has now transferred the same
conduct to the State of Kansas, and State of Missouri,
abusing and neglecting J.S. and B.S. the children of
Shophar; with criminal acts, but is given special
privileges by the State Courts, continuing to endanger
the children, presently prostituting and presently
abusing drugs, being convicted of 3 more criminal acts
in the State of Kansas and the State of Missouri,
being recently determined as placement for the
children J.S. and B.S., by the same Judge’s Christina
Gyllenborg, and Judge Kathleen Sloan, but the father
is denied any rights to his children or any knowledge
where his children are to this very moment, without
any merit of Law and act committed by Shophar. This
is a deprivation of “life and liberty.”
V. Argument
1.

Violations of Religious Freedom

Jorel Shophar lives his life practicing the Law of
the Holy Bible under the Covenant of Jesus Christ,
and the Laws written by the Apostles degree’s.

30

1. The children are under an illegal seizure, being
denied their rights and freedom guaranteed by
the Constitution. Shophar, biological father,
and the legal father, and protector of the
children, having a Biblical Law duty to take
care of his children, is denied his fundamental
“religious right”, without any probable cause,
violating due process.
n.

Violations of Constitutional Law

Pursuant to the First Amendment, Kansas State
actors denied Shophar a right of his of “freedom of
speech” to have a say in the Court of Law,
discriminating against him, while given special
privileges to Krissy Gorski.
Based on the First Amendment Law of the
Constitution of the United States of America,
Shophar has the right to practice the Laws of the Holy
Bible. Further, Shophar has Biblical Law Rights to
his children, and his household. Fundamentally the
Constitution of the United States mirrors specific
rights “endowed by his Creator” to live in “freedom
and liberty.” The Constitution mirrors Biblical Law
with the right of “freedom of religion” and the rights
of “freedom of speech.” The State of Kansas deprived
Shophar of his rights to the Court of Law, denying
him his rights of freedom to speech in the Court of
Law, and deprived Shophar of his rights to his
children without probable cause against Shophar.

31

2. Without legal merit of law, against the interest
of justice and in contrary to the ICPC order, the
Respondent hid, deprive and denied the
Petitioner access to his children,
The
enforcement to return the children back to the
Petitioner as the fit parent must be demanded
by Constitutional law guaranteed under the 14
Amendment. It is vital to the best interest of
the children and justice that the Petitioner
have a day in court.
-

-

Truax v. Corrigan (1921) as follows: “The due
process clause requires that every man shall
have the protection of his day in court, and the
benefit of the general law, a law which hears
before it condemns, which proceeds not
arbitrarily or capriciously, but upon inquiry,
and renders judgment only after trial, so that
every citizen shall hold his life, liberty, property
and immunities under the protection of the
general rules which govern society. It, of course,
tends to secure equality of law in the sense that
it makes a required minimum of protection for
every one’s right of life, liberty, and property,
which the Congress or the Legislature may not
withhold. ”
State Judges, as well as federal, have the
responsibility to respect and protect persons
from violations of federal constitutional rights.
312 F 2d 247; (1963) - Goss v. State of Illinois

3. Pursuant to the Fourth Amendment
Shophar’s rights are being violated by the State
of Kansas, having no rights to “seize” Shophar’s
32

children, his household property, without
probable cause against Shophar. The children
have been held against their will, being
WARDS OF THE STATE OF KANSAS, for
nearly 3 years, illegally, and being sexually
abused under State seizure.
The right to procedural due process is
implicated where a constitutionally protected
liberty or property interest is concerned. Bd. of
Regents of St. Colleges v. Roth, 408 U.S. 564,
570, 92 S.Ct. 2701, 2705 (1972). The crux of
procedural due process is the right to notice and
an opportunity to be heard at a meaningful time
and in a meaningful manner. Fuentes v.
Shevin, 407 U.S. 67, 80, 92 S.Ct. 1983, 1994
(1972).
4. The State of Kansas actors have placed
nefarious orders against Shophar, in his
absence, violating Shophar Constitutional
rights to the Fourteenth Amendment,
denying Shophar the right to the Court of Law.
“No state shall make or enforce any law which
shall abridge the privileges or immunities of
citizens of the United States; nor shall any state
deprive any person of life, liberty, or property,
without due process of law; nor deny to any
person within its jurisdiction the equal
protection of the laws. ”

33

The Fourteenth Amendment "forbids the
government to infringe ... 'fundamental' liberty
interests of all, no matter what process is
provided, unless the infringement is narrowly
tailored to serve a compelling state interest." Washington v. Glucksburs. 521 U.S. 702
(1997)
in.

Conspiracy of State Actors
18 U.S.C. Section 241, 42 U.S. Code § 1983,
18 U.S. Code § Section 242

1. From the beginning state judges Christina
Gyllenborg and Kathleen Sloan violated State
and Federal Laws to protect children, denying
Shophar the right of Due Process in their
Courts, to cover up sexual abuse to children,
and a reckless life or prostitution by Gorksi.
2. After the judges adjudicated to favor Krissy
Gorski, and not the law; to protect children, the
children were placed in a dangerous situation
to avoid liability of Shophar’s Federal Claims,
and to mischaracterize the Petitioner to cause
the U.S. District Courts to deny Shophar
justice. The acts to place children in direct
danger, caused the children to be abused and
sexually abused based on the nefarious rulings
by County judges who abused their authority.
3. The illegal placement of the children was a
retaliatory action against the Petitioner
because of the multiple Federal lawsuits filed
by the Petitioner which named Respondents as

34

Defendants. Kansas Respondents corruptly
conspired to make the removal with an order to
exceed jurisdiction of the children in Kansas
and block Petitioner the return of his children.
An order that exceeds the jurisdiction of the
court is void, and can be attacked in any
proceeding in any court where the validity of the
judgment comes into issue. (See Rose v. Himely
(1808) 4 Cranch 241, 2 ed 608; Pennoyer v. Neff
(1877) 95 US 714, 24 L ed 565; Thompson v.
Whitman (1873) 18 Wall 457, 21 I ED 897;
Windsor v. McVeigh (1876) 93 US 274, 23 L ed
914; McDonald v Mabee (1917) 243 US 90, 37
Set 343 61 L ed 608.
VI. Mandamus was appropriate
The Kansas Supreme Court erred in not granting
Mandamus and dismissing the case without directing
the Respondents to answer, seeing the matter
involved the illegally seizure, of children that were
placed in State Custody based on the mother’s DUI on
Meth and Heroin. The father, Jorel Shophar, has no
criminal and is not the offending parent in the case.
The Kansas Court has no legal grounds or merit of
law to hold the children as WARDS OF THE STATE
OF KANSAS.
a. Pursuant to Kan. STAT. § 38-2271 barred
children to be placed with the mother,
- Consideration or placement of the Petitioner’s
children to the mother’s home by the Court,
35

Kansas DCF or KVC is in violation to the Kan.
STAT. § 38-2271 as the statute states a parent
is unfit by reason of conduct or (1) A parent has
previously been found to be an unfit parent in
proceedings under K.S.A. 38-2266 et sea. ...or
comparable proceedings under the laws of
another jurisdiction;
4. Petitioner has had no adequate remedy at law
or any review in the State of Kansas being
denied any remedy from the State Court,
Kansas District Court, while Shophar is yet a
resident of the State of Illinois, which is a
foreign State, which calls of the United States
Supreme Court to take Jurisdiction. Shophar
has tried all remedy allotted to him as a citizen
of the United States, including, State Courts,
U.S. District Courts, U.S. Appellate Courts,
and the Kansas Supreme Court, bring denied
reviews in the Kansas Appeals Court and
Supreme Court. Every day the Petitioner’s
children are under a reckless unfit mother,
under Kansas DCF or Kansas’ jurisdiction is a
miscarriage to justice. Controversial issues
pertaining to Petitioner’s children in Kansas
remain unresolved for over 5 lA years and
Kansas refuses to let Petitioner’s children free.
5. The Mandamus filed by the Petitioner in 2016
and 2018 were appropriate remedies in the
situation where the children were placed
willingly under an unfit criminal mother by the
Respondents which resulted in the children

36

being sex trafficked under the care of the
mother and endangered. The Respondents
conspired to support Gorski in her criminal
conduct using their positions to falsely lie
against the Petitioner, denied the Petitioner
his children, and denied access to court.
6. As a matter of law, the Petitioner had a right
to his children as the fit Father, while Kansas
statute barred Kansas Respondents from
placing the children under the mother who was
proven to be an unfit mother with parental
rights terminated prior.
A child has an equal right to be raised by the
Father, and must be awarded to the Father if he
is the better parent, or Mother is not interested.
Stanley V. Illinois, 405 US 645 [1972]
7. In 2016 Petitioner filed an Appeal, Petition of
Review and a Writ of Mandamus in the Kansas
Supreme Court in order to protect his children
from an unfit mother. In addition, to stop
violation to Kansas law, abuse of power and
discretion by the Respondents. All cases were
denied without any review.
8. In 2018, the children were endangered and
sexually trafficked by mother, diagnosed with
PDSD and admitted to Psychiatric Hospitals in
Kansas; Respondents corrupt conduct did not
protect the children.

37

9. Evidence was submitted to the Erica Miller the
Assistant District Attorney, Kansas DCF and
KVC in a form of a Comprehensive DCF Report
by the State of Michigan that Krissy Gorski
was found unfit and had parental rights
terminated with her first son. Evidence was
also submitted to the Johnson County Court
records for Judge Sloan and Gyllenborg.
10. It has been clearly established by clear and
convincing evidence through Michigan DCF
records which corroborate with Petitioner’s
evidence and claims, provided to the State of
Kansas that Gorski posed a risk to the children.
In addition, the State of Kansas in a CINC
Petition submitted by the infamous Eric Miller,
finally declared Gorski’s conduct which
included child endangerment, prostitution
lifestyle, felony convictions and continual drug
abuse of Meth and Heroin. However, 2016 in
willful, wanton and neglectful conduct
Respondents conspired to returned the
children secretly to Gorski knowing the
children were at risk of endangerment under
Gorski’s care.
11. In 2018, the children were indeed endangered
by Gorski who drove under the influence of
Meth with the children in the vehicle. The
Respondents were obligated to follow the law
and return the children to the Petitioner as the
fit parent and not unlawfully place the children
into Kansas DCF custody.

38

12. Respondents abuse their discretion in
retaliatory against the Petitioner for his filed
laws suits in Federal Court against the
Respondents for deprivation of constitutional
rights. The Kansas Supreme court needed to
issue the Writ of Mandamus to correct the
abuse.
13. The Respondents did not establish by evidence
that the children should not be return to the
father. There were no reasonable efforts made
to contact the father prior to taking children
into State Custody violating due process and
Social Security Act. There were no reasonable
efforts made to enable the children to be return
to the home of the Father in another State. It
was clearly stated on temporary order that
Mother continued in abuse of substances. As to
the Petitioner, DA knowingly made false
documentation that Petitioner was not
involved and had no contact with the children
since 2017.
In Stanley u. Illinois, 405 U.S. 645, 92 S. Ct. 1208
(1972) The United States Supreme Court held that
Under the Due Process Clause of the 14th
Amendment, the unmarried father was entitled to a
hearing on his parental fitness before his children
could be placed with the State. Further, the Court

39

held such denial of hearing to the father and
granting to the mother violated the Equal Protection
Clause of the Amendment.
14. On the contrary, the Respondents had full
knowledge of Petitioner’s out of state resident
- and contact information. Since 2016 Petitioner
was fighting for his God given rights and
constitutional rights to his children, in the
legal arena in Kansas naming Respondents as
Defendants in Federal Courts.
In 2017
Petitioner filed 2:2017-CV-13322 which
included the Johnson County, Respondent
Gyllenborg and Gorski as Defendants to
protect his children for danger. 2:17CV13900
an Emergency Habeas Corpus filed with
evidence of Gorski’s criminal conduct. Even as
the Federal Case were ongoing the children’s
endangerment was exposed and Kansas
Respondents were
forced to removed
Petitioner’s children from Gorski due to Gorski
being arrested for DUI of Meth while the
children were in the vehicle.
Reasons for Granting Petition
The United States Supreme should execute and act
for the citizens of America, to safeguard citizens from
nefarious orders by County court judges, and States
who deny Constitutional rights, and cause death,
medical emergencies, physical abuse, and sexual
40

abuse to children. The authorities of the government
abroad are denying fathers the fundamental rights to
their children, while giving special privileges to
mothers. The Law of the Land, is to foresee injustices,
maintain “liberty and freedom” which propels citizens
to higher heights in their aspirations in a free Nation.
If the United State Supreme Court does not act
upon such dereliction of duty of judges, in regards to
families, and their wellbeing, the Land will become
desolate, and destitute of righteousness, and bring
forth another generation of children that are broken
Conclusion
The State of Kansas, and the above Respondents
have conducted in a conspiracy, violating
Constitutional Laws of the First Amendment, Fourth
Amendment,
and
Fourteenth
Amendment,
committing fraud on the Court, false representation
of Kansas Law, and Federal Laws to protect children,
by cover-up of sexual abuse to minors, child
endangerment.
The Kansas Court practiced
discrimination, showing partiality, and bias conduct
in the Court; deprivations of Due Process, criminal
false communication, aiding and abetting a criminal,
and many more acts of wanton, and willing
misconduct and gross misrepresentation of the Law,
which must have a Day in Court. It is imperative that
the Higher Court act, and decree New Laws to protect
the innocence of children, and the rights of fathers to

41
X

protect and raise them in freedom and liberty, in a
Nation under God, in whom we trust.
Respectfully submitted,

Jofel Shophar Pro Se
1900 E. Golf Rd.
Schaumburg, IL 60173
Phone: (773) 563-9851
Shophar@UnitedStatesChurch.us

42

